February 9, 2010

JORDAN M. SMALL
VICE PRESIDENT, NETWORK OPERATIONS

PRITHA N. MEHRA
VICE PRESIDENT, BUSINESS MAIL ENTRY AND PAYMENT TECHNOLOGIES

SUBJECT: Audit Report – Plant-Verified Drop Shipment Controls
         (Report Number MS-AR-10-001)

This report presents the results of our self-initiated audit of plant-verified drop shipment
(PVDS) controls (Project Number 09RG007MS000). PVDS allows for the verification of
mail and postage payment at a U.S. Postal Service facility (origin facility) and then the
mailer or its representative to transport the mail (drop ship) to another Postal Service
facility (destination facility) to obtain postage discounts. In fiscal years (FY) 2008 and
2009, revenue from destination-entered Standard Mail® was $15.3 billion and $13
billion, respectively. Because the Postal Service does not track mail volume by
verification procedure, specific figures are not available for the plant verified portion of
destination-entered mail.

Our objective was to determine whether controls are adequate to prevent PVDS mailers
from adding mail en route, after verification at the origin facility1 but before it reaches
the destination Postal Service facility. This audit addresses operational risk to the
Postal Service. See Appendix A for additional information about this audit.

Conclusion

Controls are not adequate to prevent mailers from adding mail en route to the
destination Postal Service facility and to ensure the Postal Service receives all revenue
due from PVDS. PVDS mailers can add mail en route, after verification at the BMEU,
DMU, or other origin location, but before it reaches the destination Postal Service
facility. As a result, the Postal Service is at risk of significant revenue loss.




1
 The origin facility is normally a business mail entry unit (BMEU) or a detached mail unit (DMU), which is a Postal
Service work area or office located in a mailer’s plant or place of operation. Postal Service acceptance employees
are assigned to DMUs to verify mail.
Plant-Verified Drop Shipment Controls                                                     MS-AR-10-001



Procedures for Verifying PVDS at Destination Facilities Need Strengthening

Employees do not adequately verify PVDS at the destination facilities. Specifically,
employees verify the pallet or container counts but do not weigh the shipments.
Therefore, additional mail volume can be added without detection. Postal Service
guidelines allow accepting mail if the pallet and container count matches the Postal
Service (PS) Form 8125, Plant-Verified Drop Shipment (PVDS) Verification and
Clearance.2 Guidelines do not take into consideration that mail volume can be added to
the pallets or containers after verification at the origin office. In addition, scales have
been removed from most destination facility dock areas, preventing the weighing of the
PVDS at the facility. Without adequate verification procedures at the destination facility,
the Postal Service cannot be assured of collecting all revenue due from these
shipments. See Appendix B for our detailed analysis of this topic.

We recommend the vice president, Network Operations, coordinate with the vice
presidents, Area Operations, to:

1. Update Publication 804, Drop Shipment Procedures for Destination Entry, and other
   applicable manuals and handbooks to require weight verification for all shipments at
   destination.

2. Provide scales at plant-verified drop shipment verification areas for weight
   verification at destination facilities.

Altered and Noncompliant PS Forms 8125

Employees accepted PVDS mailings with altered and noncompliant PS Forms 8125.
Specifically, 16 (6.35 percent) of 252 PS Forms 8125 we reviewed, had been altered or
were noncompliant with Postal Service policy but were accepted at the destination
facility. Employees accepted 14 altered3 PS Forms 8125 without the required fax copy
of the original document to ensure the alterations were appropriate. Additionally,
employees accepted one PVDS at a different facility from the one listed on the form,
and one form contained no pallet or container count or total gross weight.

This occurred because current Postal Service procedures require employees to
manually compare PS Forms 8125 information received at the destination facility with
information at the origin facility only when the form has apparent alterations. Therefore,
PS Forms 8125 received at the destination facility are only compared with the original
on an exception basis. Further, some employees4 and supervisors5 overseeing PVDS
have not received training on verifying these shipments. An electronic process would
2
  Publication 804, Drop Shipment Procedures for Destination Entry, Section 6-5, August 2006.
3
  Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
4
  Refer to Appendix B, Table 3.
5
  Refer to Appendix B, Table 4.




                                                   2
Plant-Verified Drop Shipment Controls                                           MS-AR-10-001



allow for the efficient comparison of all PS Forms 8125 received at the destination
facility with those prepared at the origin facility to detect any alterations. Without
adequate verification, additional mail volumes can be added without being detected,
and the Postal Service risks significant revenue loss. See Appendix B for our detailed
analysis of this topic.

We recommend the vice president, Network Operations, coordinate with the vice
presidents, Area Operations, to:

3. Provide training to employees and supervisors who verify or oversee the verification
   of plant-verified drop shipments at destination facilities.

We recommend the vice president, Business Mail Entry and Payment Technologies,
and the vice president, Network Operations, coordinate with the vice presidents, Area
Operations, to:

4. Provide an electronic reporting solution whereby Postal Service Form 8125, Plant-
   Verified Drop Shipment (PVDS) Verification and Clearance, information at the
   destination facility can be compared with the information at the origin location.
   Discrepancies or incomplete forms should be investigated.

Management’s Comments

Management disagreed with recommendations 1 and 2 and agreed with
recommendations 3 and 4. Regarding recommendations 1 and 2, management stated
the current verification process provides the necessary revenue assurance procedures;
the risks associated with weight differences do not warrant the additional cost of
procuring scales; and weight verification does not align with the Postal Service’s
Intelligent Mail Vision. However, management is developing training on the verification
process for employees at destination facilities and will update Publication 804, Drop
Shipment Procedures for Destination Entry, by spring 2010.

To address recommendation 3, management will provide online training to employees
involved with destination network distribution center, destination area distribution center,
and destination sectional center facility drop shipments by March 2010. Regarding
recommendation 4, the Postal Service is planning to utilize the intelligent mail full-
service option to provide controls over mailings receiving drop shipment discounts.
Management indicated these features will include providing electronic PS Form 8125
information to processing facilities with surface visibility technology, and scanners will
be used to validate the drop shipment facility and postage payment. Management has
not established a schedule for implementing these features, but stated the features will
be a critical component of seamless acceptance capabilities. See Appendix C for
management’s comments, in their entirety.




                                             3
Plant-Verified Drop Shipment Controls                                             MS-AR-10-001



Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendation 3, and
their corrective actions should resolve the issues identified in the report. However,
management’s comments are only partially responsive to recommendations 1, 2, and 4,
and will not fully resolve the issues identified in the report. While we agree additional
employee training on verifying PVDS mailings would be helpful in reducing risk, the
current verification process does not ensure postage is paid for all mail volumes arriving
at destination facilities. Specifically, mailers can add mail after verification at the origin
facility without it being detected. In a subsequent meeting, management informed us
that gross weight is no longer verified at origin, so weight verification at destination
would not ensure proper payment. They agreed that mailers can add mail in transit
without it being detected, and adherence to verification procedures could be improved.
Management believes a planned training and certification initiative involving more than
8,000 business mail entry and plant personnel will improve controls over PVDS mailings
until the intelligent mail infrastructure is fully implemented,

While the intelligent mail barcode and associated infrastructure will provide the
capability to track mailpieces, only the full-service option provides some ability to
confirm that the applicable postage was paid. However, the Postal Service did not
make the full-service option for intelligent mail mandatory, and many mailers have not
adopted this option. Additionally, management has no current schedule for the
intelligent mail barcode and seamless acceptance capabilities that may provide
electronic PS Form 8125 information. Therefore, interim verification procedures are still
needed to ensure all drop shipments arriving at destination facilities have been properly
verified at the origin location and the applicable postage paid. An interim electronic PS
Form 8125 solution would improve controls over PVDS.

The OIG considers all the report recommendations significant. We view the
disagreement on recommendations 1, 2, and 4 as unresolved. We do not plan to
pursue recommendations 1 and 2 through the formal audit resolution process, and we
will close them as not implemented upon issuance of this report. We view the
disagreement on recommendation 4 as unresolved and plan to pursue it through the
formal audit resolution process. OIG concurrence is needed to close recommendation
3. Please provide written confirmation when corrective actions are completed. This
recommendation should not be closed in the Postal Service’s follow-up tracking system
until the OIG provides written confirmation that the recommendation can be closed.




                                              4
Plant-Verified Drop Shipment Controls                                         MS-AR-10-001



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert Mitchell, director, Sales
and Service, or me at (703) 248-2100.


      E-Signed by Inspector General
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems
Attachments

cc: Steven J. Forte
    Thomas G. Day
    Vice Presidents, Area Operations
    Sally K. Haring




                                            5
Plant-Verified Drop Shipment Controls                                                                         MS-AR-10-001



                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

PVDS allows for the verification of mail and postage payment for Standard Mail®,
Periodicals, and Package Services at Postal Service facility (origin facility) and then the
mailer to transport the mail (drop ship) to another Postal Service facility (destination
facility).6 In FYs 2008 and 2009, revenue from destination-entered Standard Mail® was
$15.3 billion and $13 billion, respectively. Because the Postal Service does not track
mail volume by verification procedure, specific figures are not available for the plant
verified portion of destination-entered mail.

Mailings are verified by Postal Service employees assigned to a DMU or at the BMEU
servicing the mailer’s plant. The mailer is required to include a postage statement that
summarizes all the postage and volume information for the mailing. Also, a PS Form
81257 is required for each segment of the mailing that is to be deposited separately at a
destination Postal Service facility. BMEU acceptance employees are required to verify
the accuracy of the postage statement and supporting documents and return the mail to
the mailer with a dated and signed copy of PS Form 8125.8 The mailer then transports
the mail to each drop location and presents the PS Form 8125 as proof that postage
has been paid. In addition, the mailer is required to have a valid drop shipment
appointment9 with the destination Postal Service facility. Upon arrival at the facility,
Postal Service personnel must verify the shipment to PS Form 8125. If the information
on PS Form 8125 matches the shipment, the mail is released to operations.
Discrepancies on the PS Form 8125 should be appropriately investigated.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether controls are adequate to prevent PVDS mailers
from adding mail en route, after verification at the BMEU, DMU, or other origin location,
but before it reaches the destination Postal Service facility. To accomplish our
objective, we:

        Reviewed and summarized guidance pertaining to drop shipment procedures at
         destination Postal Service facilities.



6
  Destination entry rates apply to the following destination facilities: Destination sectional center facilities, destination
area distribution centers, destination bulk mail centers, international service centers, and destination delivery units.
7
  Three versions of the clearance documents are currently in use: PS Form 8125, PVDS Verification and Clearance;
PS Form 8125-C, PVDS Consolidated Verification and Clearance; and PS Form 8125-CD, PVDS Consolidated
Verification and Clearance – Drop Shipment Management System (DSMS).
8
  Mailers authorized under the DSMS may submit PS Form 8125-CD to a destination postal facility without a Postal
Service employee's signature or date.
9
  Exceptions to the scheduling standard include: shipments containing 100-percent perishable commodities,
shipments containing 100-percent Periodicals mail, or local mailers.




                                                              6
Plant-Verified Drop Shipment Controls                                         MS-AR-10-001



       Judgmentally selected and visited nine processing and distribution centers to
        observe destination drop shipment procedures. We:

            o Conducted on-site interviews to assess management oversight of the
              receipt of drop shipment mailings.

            o Reviewed Facility Access and Shipment Tracking (FAST) reports to verify
              shipment appointment identification numbers.

            o Conducted 25 observations to determine whether receiving employees
              accept PVDS mailings according to Postal Service policies and
              procedures.

            o Judgmentally selected PS Forms 8125 at each of the nine sites. Received
              252 forms from the origin offices and compared mail volumes, total gross
              weight, processing categories, and destination entry rates back to the
              destination forms.

We conducted this performance audit from January 2009 through January 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on October 29, 2009, and included
their comments where appropriate.

PRIOR AUDIT COVERAGE

There are no prior OIG or Government Accountability Office audits conducted in the last
3 years related to PVDS.




                                            7
   Plant-Verified Drop Shipment Controls                                                          MS-AR-10-001



                                     APPENDIX B: DETAILED ANALYSIS

   Procedures for Verifying PVDS at Destination Facilities Need Strengthen

   Employees do not adequately verify PVDS at the destination facilities. Specifically,
   employees verify the pallet or container counts but do not weigh the shipments.
   Therefore, additional mail volume can be added without detection. We conducted 25
   observations of employees verifying PVDS at nine destination facilities to assess
   compliance with approved procedures.

                        Table 1. Summary of Destination PVDS Observations10
                                                                            Not         Not
                 QUESTION                                Yes       No     Observed   Applicable        TOTAL
 Review PS Form 8125 and verify that
 the:
a. Employee completed the origin office
    section at the origin Postal Service                  24       1         0           0               25
    facility.
b. Employee verifying the form signed the
                                                          21       4         0           0               25
    form.
c. Employee verified that the round stamp
    date or appropriate legend for alternate
                                                          23       2         0           0               25
    procedures was printed on PS Form
    8125.
d. Employee ensured the mailers section
                                                          24       1         0           0               25
    is complete.
 Verify the shipment and compare the
 mail to the PS Form 8125:
a. The employee verified the class of mail
    was correct (Standard Mail, Package                    9       15        1           0               25
    Services, Periodicals, or International).
b. The employee verified the processing
    category was correct (letters, flats, or               7       17        1           0               25
    parcels).
c. The employee verified the discount
    rates claimed are correct and the
                                                           9       15        1           0               25
    containers are destined for the facility
    where they are being deposited.
d. The employee randomly compared the
    actual mail product/publication title or
                                                           9       15        1           0               25
    names to the product/publication title or
    name listed.


   10
        Checklist taken from Publication 804, Section 6-5, August 2006.




                                                               8
    Plant-Verified Drop Shipment Controls                                                                   MS-AR-10-001



                                                                                Not               Not
                 QUESTION                                    Yes       No     Observed         Applicable         TOTAL
 e. Ensure the volumes match the PS
    Form 8125. Counts must match.
    Verify the following:
     1. The employee counted the physical
        number of pallets/containers when
                                                              23       2            0                 0             25
        the shipment was
        palletized/containerized.

    Altered and Noncompliant PS Forms 8125

    We compared a sample of 252 origin and destination PS Forms 8125. Sixteen (6.35
    percent) of the 252 PS Forms 8125 accepted at the destination facilities were not in
    compliance with policy. Publication 804 requires destination employees to verify the
    entry office is the correct destination facility and ensure the shipment volume matches
    PS Form 8125. It further states if an alteration other than the mailer’s contact
    information or drop shipment appointment information occurs on PS Form 8125, a fax
    copy of the original document must be sent to the destination facility. Therefore, PS
    Forms 8125 received at the destination facility are only compared to those prepared at
    the origin facility on an exception basis. An electronic process would allow for the
    efficient comparison of all PS Forms 8125 received at the destination facility to those
    prepared at the origin facility to detect any alterations.

                             Table 2. Altered and Noncompliant PS Forms 8125

                          Noncompliant Forms                                                   Altered11    Other    TOTAL
Container count increased on destination PS Form 8125                                              4                   4
Container count lowered on destination PS Form 8125                                                4                   4
Containers and weight volume added to destination PS Form 8125                                     2                   2
PVDS mailing accepted at wrong destination facility                                                           1        1
Neither destination nor origin PS Forms 8125 listed container count or
                                                                                                              1            1
total gross weight
Origin PS Forms 8125 had no container count or total gross weight listed;
however, destination PS Forms 8125 listed container counts and total                              4                        4
gross weights
Totals                                                                                            14          2          16




    11
         A faxed copy of the original PS Form 8125 was not sent to the destination facility.




                                                                   9
Plant-Verified Drop Shipment Controls                                                                   MS-AR-10-001



We interviewed employees and management working with PVDS at the destination
facilities and found some did not receive training on verifying PVDS. (See Tables 3 and
4.)

                        Table 3. Training For Employees Who Verify PVDS
                  QUESTION                                           Yes         No         Not Sure         TOTAL
 Have you received training on verifying PVDS?
                                                                     712          1            1               9


                     Table 4. Training For Supervisors13 Who Oversee PVDS
                               QUESTION                                               Yes          No        TOTAL
     Are you familiar with policies, procedures, standard operating
     procedures, or other guidance for receiving, verifying, and                       6           3           9
     accepting PVDS mailings?




12
     Employee received on-the-job training either from a trainer or from the expediter whom they replaced.
13
     This includes supervisors, acting supervisors, network specialists, or FAST coordinators.




                                                           10
Plant-Verified Drop Shipment Controls                      MS-AR-10-001



                       APPENDIX C: MANAGEMENT’S COMMENTS




                                        11
Plant-Verified Drop Shipment Controls        MS-AR-10-001




                                        12
Plant-Verified Drop Shipment Controls        MS-AR-10-001




                                        13
